   I nvestigative
 Policy &
 O versight
    Evaluation of the Policies and Practices of the Defense
    Organizations Employing Criminal Investigators with
             Respect to Control Over Firearms

Report Number IPO2003E001                           March 28, 2003



              Office of the Inspector General
              of the Department of Defense
  Additional Information and Copies

  The Office of the Deputy Assistant Inspector General for Investigative Policy and
  Oversight, Office of the Assistant Inspector General for Inspections and Policy of
  the Department of Defense prepared this report. To obtain additional copies of the
  evaluation report, visit the Web site of the Inspector General of the Department of
  Defense at http://www.dodig.osd.mil/dcis/cipo/evals, or contact Mr. David Holmes
  at (703) 604-8746 (DSN 664-8746) (dholmes@dodig.osd.mil).

  Suggestions for Evaluation

  To suggest ideas for or to request evaluations, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AFOSI               Air Force Office of Special Investigations
DCIA                Defense Logistics Agency Criminal Investigations Activity
DCIO                Defense Criminal Investigative Organization
DCIS                Defense Criminal Investigative Service
DLA                 Defense Logistics Agency
DPS                 Defense Protective Service
FBI                 Federal Bureau of Investigation
GAO                 General Accounting Office
INS                 Immigration and Naturalization Service
NCIS                Naval Criminal Investigative Service
OIG                 Office of Inspector General
PFPACI/IAD          Pentagon Force Protection Agency Criminal
                       Investigations/Internal Affairs Directorate
USACIDC             U.S. Army Criminal Investigation Command
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                      March 28, 2003

 MEMORANDUM FOR INSPECTORGENERAL OF THE DEPARTMENT OF
                  DEFENSE
               ASSISTANT SECRETARYOF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                DIRECTOR,ADMlNISTRAllON AND MANAGEMENT
                DIRECTOR,DEFENSELOGISTICSAGENCY
               NA V AL INSPECTORGENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Reporton Evaluationof the Policiesand Practicesof the Defense
         OrganizationsEmploying Criminal fuvestigatorswith Respectto Control
         Over Firearms(ReportNo.IPO2003EOOl)

     Weare providing this report for review and comment. We considered
managementcommentson a draft of this reportwhenpreparingthe final report.
         DoD Directive 7650.3requiresthat all recommendations be resolvedpromptly.
 The InspectorGeneralof the Departmentof Defense,the DefenseCriminal Investigative
 Service,the Army, and the Air Forcewere responsiveto all recommendations; however,
 estimatedcompletiondatesfor promisedactionswere not providedby the Defense
 LogisticsAgency,the DefenseCriminal InvestigativeService,or the Air Force. The
 DefenseLogistics Agencydid not concurwith RecommendationB.4., but concurredwith
 all otherrecommendations.The PentagonForceProtectionAgency did not concurwith
RecommendationA.2., but concurredwith all otherrecommendations.The Navy
partially concurredwith RecommendationA.I, did not concurwith Recommendation
C.I., and concurredwith the remainingrecommendations.We acceptthe Navy's partial
concurrencewith RecommendationA.I. For reasonsset forth in the final report, we did
not acceptthe basisfor non-concurrence by the DefenseLogistics Agencyon
RecommendationB.4., by the Navy on RecommendationC.I., or by the PentagonForce
ProtectionAgencyon RecommendationA.2. We requestthe PentagonForceProtection
Agencyprovide additionalcommentson RecommendationA.2.; the DefenseLogistics
Agencyprovide additionalcommentson RecommendationB.4.; and the Navy provide
additionalcommentson RecommendationC.I. In addition,we requestthe Defense
LogisticsAgencyprovide an estimatedcompletiondatefor promisedactionson
Recommendations   B.3. andB.6., and that the DefenseCriminal InvestigativeServiceand
the Air Forceprovide estimatedcompletiondatesfor promisedactionson all of their
recommendations.We requestthe commentsby April 30, 2003.

 If possible,pleaseprovide managementcommentsin electronicformat (Adobe Acrobat
file only). Copiesof the managementcommentsmust containthe actualsignatureof the
authorizingofficial. We cannotacceptthe / Signed/ symbol in placeof the actual
signature. If you arrangeto sendclassifiedcommentselectronically,they must be sent
over the SECRETInternetProtocolRouterNetwork (SIPRNET). We normally include
copiesof the commentsin the final report. Mattersconsideredby managementto be
exemptfrom public releaseshouldbe clearly markedfor InspectorGeneralconsideration.

        We appreciatethe courtesiesextendedto the evaluationstaff. Questionsshould
be directedto Mr. David Holmes at (703) 604-8746(DSN 664-8746). SeeAppendix E
for the report distribution. The teammembersarelisted insidethe back cover.




                                CharlesW. Beardall
                         Deputy Assistant Inspector Gt era!
                         Investigative Policy and Dve ight




                                         2
          Office of the Inspector General of the Department of Defense
Report No. IPO2003E001                                                   March 28, 2003
   (Project No. 2002C001)

  Evaluation of the Policies and Practices of the Defense Organizations
          Employing Criminal Investigators With Respect to
                         Control Over Firearms

                                Executive Summary

Who Should Read This Report and Why? Directors and Commanders of DoD and
military organizations who employ criminal investigators, and congressional members
and others interested in Federal law enforcement matters should read this report. It
explains how some DoD Components need to improve their firearms accountability and
loss reporting policies and practices.

Background. In response to a congressional request, the General Accounting Office
(GAO) announced a study of Executive Branch civilian law enforcement agency controls
over firearms and other weapons. To identify possible best practices that may not exist
within traditional law enforcement, the General Accounting Office sought our support.
In response, we conducted this evaluation of six criminal investigative agencies
representing the Army, Navy, Air Force, Office of the Inspector General of the
Department of Defense, Defense Logistics Agency, and the Pentagon Force Protection
Agency.

Results. We accounted for all of the firearms in our random sample inventories
conducted at 160 locations. Of 5,758 firearms used for law enforcement within the six
evaluated organizations, only 12 firearms were reported lost or stolen during the review
period of FY 1999 through FY 2001, and 9 of those were recovered. Of the 7
investigations concerning the 12 firearms, 5 were thorough and well documented. The
remaining investigations contained discrepancies, which are addressed in section C of the
report. The criminal investigators in each organization have proper authorization to carry
firearms. We noted two discrepancies; one concerned the practice of taking Government
firearms home, and the other concerned the authorization for carrying personal firearms.
Instances existed where firearms accountability records were not up to date, and some
organizations did not have procedures that would ensure only authorized firearms were
procured. Additionally, most organizations did not have a recurring awareness program
for personnel responsible for firearms accountability. While most of the organizations
are not in compliance with DoD-required monthly and quarterly inventories, they all
conduct serial number inventories at least annually. (See the report for detailed
recommendations.)

Management Comments and Evaluation Response. The Navy concurred with two of
the recommendations, partially concurred with one of the recommendations, and non-
concurred with one of the recommendations. We agree with the Navy’s partial
concurrence, if the upcoming revision to the directive concerning carrying of personal
firearms by criminal investigators while on duty provides an exemption to the
requirement for a one-year termination date for such authorizations. We do not agree
with the Navy that establishing a policy concerning leaving firearms unattended in a
vehicle would unduly hinder flexibility of the criminal investigator in some situations.
We did not recommend that a policy be established prohibiting such a practice, as
indicated in comments provided by the Director, Naval Criminal Investigative Service.
We asked only that a command-wide policy addressing the practice be established. We
request that the Navy provide comments on the final report by April 30, 2003.

The Director, Administration and Management, Office of the Secretary of Defense
generally concurred with the recommendations. Although the Director concurred with
the recommendation that a recurring awareness program concerning the accountability of
arms, ammunition, and explosives be established, he indicated that only applicable
personnel would be trained by March 31, 2003. No indication that a recurring awareness
program was established that ensures personnel remain aware of the requirements exists.
The Director did not concur that the Pentagon Force Protection Agency was in violation
of DoD policy by permitting criminal investigators to take their Government firearms
home with them at the end of their shifts, asserting that our recommendation was based
on an improper and incomplete reading of the DoD Directive. We maintain that the
current Pentagon Force Protection Agency weapons take home practice is inconsistent
with the United States Code, is contrary to DoD policy, adversely effects its ability to
protect Government-issued weapons, and imposes substantial (but not specifically
quantifiable) liability risks for its employees, as well as DoD. We request that the
Director, Administration and Management provide comments on the final report by
April 30, 2003.

The Director, Defense Logistics Agency generally concurred with the recommendations;
however, no estimated completion dates were provided. The Director did not concur that
additional written policy for reporting required firearms information to their Component
Registry for inclusion in the DoD Registry was required. We do not agree that existing
policy adequately addresses the criminal investigators assigned to headquarters. We
request that the Director, Defense Logistics Agency, provide comments on the final
report by April 30, 2003.

The Defense Criminal Investigative Service, the Army, the Air Force, and the Inspector
General of the Department of Defense concurred with all of the recommendations;
however, the Defense Criminal Investigative Service and the Air Force did not provide
estimated completion dates. We request that the Defense Criminal Investigative Service
and the Air Force provide comments on the final report by April 30, 2003. See sections
A, B, and C of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   4

Evaluation Results
     A. Authorization to Carry Firearms                                      5
     B. Accountability, Control, and Storage of Firearms                    10
     C. Lost, Stolen, and Missing Firearms                                  19

Appendixes
     A. Scope and Methodology                                               23
          Prior Coverage                                                    25
     B. Policy and Regulatory Guidance Regarding Authorization to Carry
          Firearms                                                          26
     C. Policy and Regulatory Guidance Regarding Accountability, Control,
          and Storage of Firearms                                           28
     D. Policy and Regulatory Guidance Regarding Reporting and
          Investigating Incidents of Lost, Stolen, or Missing Firearms      30
     E. Report Distribution                                                 32

Management Comments
     Department of the Navy                                                 35
     Office of Administration and Management, Department of Defense         41
     Defense Logistics Agency                                               51
     Defense Criminal Investigative Service                                 55
     Department of the Army                                                 57
     Department of the Air Force                                            61
     Office of the Inspector General of the Department of Defense           63
Background
    An Office of Inspector General (OIG), Department of Justice, audit report on the
    Immigration and Naturalization Service (INS) management of property, dated
    March 2001, discloses that INS could not account for 539 of its weapons. INS
    categorized the weapons as lost (23), missing (382), or stolen (134),1 and reported
    that not all offices conducted weapons inventories. Those offices that did perform
    inventories did not necessarily physically verify the weapons on hand, but relied
    instead on property cards and quarterly firearms qualification records. Of the 539
    weapons, 84 percent were handguns. The remaining weapons were shotguns,
    rifles, machine guns, and a gas grenade launcher. In addition, the report states
    that INS staff did not routinely report through proper channels the status of the
    weapons, and as a result, did not initiate timely follow-up action that would
    resolve each instance of an unaccounted weapon.

    In July 2001, numerous news agencies reported that the Federal Bureau of
    Investigation (FBI) could not locate more than 400 of its weapons. Attorney
    General John Ashcroft asked that the OIG for the Department of Justice conduct a
    department-wide review of inventory controls over guns and other law
    enforcement equipment. The review disclosed that the FBI was missing 450
    weapons and that no complete inventory of FBI weapons had been conducted
    since 1992.

    Congressional Requests. On July 18, 2001, Representative John D. Dingell,
    ranking member on the House of Representatives Committee on Commerce,
    requested that the General Accounting Office (GAO) conduct an investigation of
    Federal agencies that issue firearms; explain the accounting procedures for
    tracking firearms at each agency; ascertain if similar problems exist throughout
    the Federal Government; and determine how many firearms the Government is
    missing.

    On July 30, 2001, the House of Representatives Committee on the Judiciary
    requested that GAO undertake a study on internal controls for weapons in the
    possession of the law enforcement agencies within the Executive Branch of the
    Federal Government. For purposes of comparison, and to identify possible best
    practices that may not exist within traditional law enforcement, the committee
    asked GAO to also survey the Military Departments.

    Inspector General of the Department of Defense Involvement. On
    September 4, 2001, GAO announced their study of Executive Branch civilian
    agency controls over firearms and other weapons. Subsequently, GAO
    representatives and members of the office of the Inspector General of the
    Department of Defense (IG DoD), Investigative Policy and Oversight, decided
    that Investigative Policy and Oversight would conduct a similar evaluation
    1
        According to INS officials, a weapon was designated as “lost” if INS knew with certainty that
        the weapon was lost and could not be immediately recovered. A “missing” weapon meant that it
        was recorded on the property records, but INS could not find it and the circumstances
        surrounding its disappearance were unknown. “Stolen” meant that a weapon was the subject of
        a theft.



                                                 1
focused on DoD agencies employing criminal investigators. GAO would then use
information from the Investigative Policy and Oversight evaluation in their
study.2 We announced our evaluation on April 26, 2002.

We examined policies and procedures at the Defense Criminal Investigative
Service (DCIS), U.S. Army Criminal Investigation Command (USACIDC),
Naval Criminal Investigative Service (NCIS), and Air Force Office of Special
Investigations (AFOSI), as well as the Defense Logistics Agency (DLA) Criminal
Investigations Activity (DCIA) and the Pentagon Force Protection Agency
Criminal Investigation and Internal Affairs Directorate (PFPACI/IAD), referred
to collectively as Defense organizations.

DCIS. Headquartered in Arlington, Virginia, DCIS is the criminal investigative
arm of the OIG DoD. DCIS investigates allegations of criminal, civil, and
administrative violations involving DoD contract and procurement fraud, antitrust
violations, bribery, corruption, large-scale thefts of Government property, and
health care fraud. DCIS employs approximately 320 civilian criminal
investigators assigned to 57 locations throughout the continental United States,
Hawaii, and Wiesbaden, Germany. It has an inventory of 441 firearms used for
law enforcement, consisting mostly of the Sig Sauer, 9mm, model P-228,
semi-automatic pistol.

DCIA. Headquartered at Fort Belvoir, Virginia, DCIA conducts criminal
investigations involving persons and property under the charge of DLA when the
Defense Criminal Investigative Organizations (DCIOs)3 or FBI declines the
investigation. DCIA employs 18 civilian criminal investigators who are assigned
to offices located throughout the United States and Wiesbaden, Germany. It has
an inventory of 30 M-11s used for law enforcement.4

PFPACI/IAD. Headquartered at the Navy Annex in Arlington, Virginia,
PFPACI/IAD, formerly part of the Defense Protective Service (DPS), is the
investigative arm of the Pentagon Force Protection Agency. They conduct
felony-level criminal investigations of crimes against persons and property on the
Pentagon Reservation and at 180 DoD-leased facilities in and around the National
Capitol Region, including Maryland, Virginia, and Washington, D.C.
PFPACI/IAD employs six criminal investigators, with an authorization for nine.
It has an inventory of six model P-228s used for law enforcement.

USACIDC. Headquartered at Fort Belvoir, Virginia, USACIDC investigates
felony-level crimes of interest to the Army. As of August 2002, USACIDC had
1,183 military and civilian criminal investigators at 130 units throughout the

2
    GAO prepared an extensive questionnaire concerning policies and practices for the control of
    firearms to be sent to the agencies included in their study. At the request of GAO, we
    administered the questionnaire to a point of contact within each of the organizations in our
    evaluation. We provided the results to GAO, and we used the information in conjunction with
    our own research in this evaluation.
3
    The DCIOs are DCIS, USACIDC, NCIS, and AFOSI.
4
    The M-11 is the military version of the Sig Sauer, model P-228, and is the standard firearm
    issued to DCIA, USACIDC, NCIS, and AFOSI military and civilian criminal investigators.



                                              2
world. It has an inventory of 1,345 firearms used for law enforcement, mostly
M-11s. The inventory also includes the MP-5 machine gun.

NCIS. Headquartered at the Washington Navy Yard, Washington, D.C., NCIS
investigates major criminal offenses, counterintelligence, and related security
matters for the Navy and Marine Corps. It also has policy oversight for the
Navy’s law enforcement and security missions. NCIS employs 962 criminal
investigators assigned to 113 locations throughout the world. It has an inventory
of 1,874 firearms used for law enforcement, mostly M-11s. The inventory also
includes shotguns.

AFOSI. Headquartered at Andrews Air Force Base, Maryland, AFOSI delivers
investigative services that protect Air Force and DoD personnel and operations.
AFOSI command priorities are to detect worldwide threats to the Air Force;
identify and resolve crime threatening Air Force readiness or good order and
discipline; combat threats to information systems and technologies; and detect
and deter fraud in the acquisition of weapons systems. AFOSI has 1,835 military
and civilian criminal investigators, including 437 reservists, assigned to 168
locations throughout the world. It has an inventory of 2,062 firearms used for law
enforcement, mostly M-11s. The inventory also includes M-9s,5 shotguns, and
machine guns.

Department of Defense Small Arms Central Registry. The DoD Small Arms
Central Registry (DoD Registry) is a DoD-wide system established to maintain
small arms serial number tracking capability.6 It provides a central repository of




5
    The M-9 is the military version of the Berretta, model 92, 9mm, semi-automatic pistol, which the
    M-11 replaced as the standard firearm issued to criminal investigators.
6
    The Army is the designated executive agency for operation and oversight of the DoD Small
    Arms Central Registry.




                                              3
    small arms serial numbers from the component registries,7 including firearms on
    hand, in transit, lost, stolen, demilitarized, or shipped outside the control of DoD.


Objectives
    Our overall objective was to evaluate whether the Defense organizations have
    adequate policies and practices regarding the control of firearms issued to their
    criminal investigators. Specifically, we evaluated the adequacy and effectiveness
    of the Defense organization policies and practices regarding authorization of their
    criminal investigators to carry firearms; the accountability, control, and storage of
    firearms; and reporting and investigating lost, stolen, or missing firearms. See
    Appendix A for a discussion of the scope and methodology and prior coverage.




    7
        The Army Materiel Command Logistics Support Activity, Redstone Arsenal, Huntsville,
        Alabama, operates and maintains the DoD Registry as well as the Army Component Registry.
        Warner-Robins Air Logistics Center, Robins Air Force Base, Georgia, maintains the Air Force
        Component Registry. The Naval Surface Warfare Center, Crane, Indiana, maintains the Navy
        Small Arms Registry. DLA is the only DoD Component that has its own registry, which is
        maintained by the Defense Reutilization and Marketing Service, Battle Creek, Michigan. DCIS
        reports to the Army Component Registry, as does the Washington Headquarters Services for
        PFPA.




                                                4
              Evaluation Results
              Each Defense organization has procedures for carrying, issuing,
              safeguarding, storing, and inventorying firearms, and for reporting and
              investigating incidents of lost, stolen, or missing firearms. With the
              exception of DCIA, each Defense organization permits criminal
              investigators to take their firearms home at the end of each duty day.
              Although discrepancies in inventory procedures among the Defense
              organizations existed, we accounted for all of the firearms examined in
              this evaluation. In five of seven incidents, the Defense organizations
              properly reported, investigated, and documented lost, missing, or stolen
              firearms.


A. Authorization to Carry Firearms
   DoD Directive 5210.56, “Use of Deadly Force and the Carrying of Firearms by
   DoD Personnel Engaged in Law Enforcement and Security Duties,”
   November 1, 2001,8 authorizes DoD law enforcement personnel to bear firearms.
   The directive requires written authority for carrying firearms, granted only if the
   individual satisfactorily completed qualification training, proficiency testing, and
   use of deadly force training within the preceding 12 months. DoD military and
   civilian personnel who are regularly assigned to law enforcement or security
   duties may be granted continual authority for carrying firearms if they meet
   yearly qualification standards. The directive requires that firearms be returned to
   the designated control point for storage and accountability once the assignment is
   completed. In addition, DoD personnel are only authorized to carry Government-
   owned and issued firearms and ammunition while performing official duties.
   However, the directive allows Secretaries of the Military Departments and the
   IG DoD to authorize exceptions of those two requirements for the DCIOs.

   Each of the six Defense organizations use identification credentials as the written
   authority for criminal investigators to carry firearms. DCIS and NCIS are the
   only Defense organizations that permit criminal investigators to carry personally
   owned firearms while performing official duties. Criminal investigators
   authorized to carry personally owned firearms while performing official duties
   must meet the same qualification requirements as for Government-owned
   firearms.9 Each of the six Defense organizations developed supplemental
   guidance for carrying firearms. See Appendix B for individual agency
   compliance with DoD guidance. Specific areas of concern are discussed below.

   8
       Paragraphs 4.1, E1.1.4, E1.1.5, E1.1.6, and E1.1.9.
   9
       DCIS is considering replacing the current 9mm Sig Sauer model P-228 pistols with three
       different .40 caliber models, which will give its criminal investigators a greater choice of
       firearms. Under current DCIS guidance, personally owned firearms authorized for carrying
       while performing official duties must be of the same caliber as the issue firearm. Should DCIS
       transition to the .40 caliber firearm, criminal investigators would no longer be authorized to
       carry personally owned 9mm firearms while on duty.


                                                 5
    NCIS. NCIS permits its criminal investigators to carry personally owned
    firearms; however, NCIS is not in compliance with Navy guidance.10 Navy
    guidance permits the Commander, Naval Investigative Service Command
    [Director, NCIS], to authorize criminal investigators to carry non-Government
    issued (personally owned) handguns while performing official duties. Each
    authorization must include a termination date, not later than 1 year from the date
    of the authorization, and notice to the criminal investigator that while the criminal
    investigator is performing official duties only Government ammunition is
    authorized for use with a personal firearm. NCIS guidance does not include a
    1-year termination date nor notice to criminal investigators that only Government
    ammunition may be used in a personal firearm while performing official duties.

    PFPACI/IAD. DoD Directive 5210.56 requires that firearms be returned for
    storage and accountability to a designated control point on completion of the
    assignment and authorizes exceptions for only the DCIOs. In November 1999,
    the Director, PFPA (formerly Chief, DPS), signed a policy memorandum
    authorizing criminal investigators to take their Government-owned firearms home
    at the end of each duty day. PFPACI/IAD then included the policy as a standard
    operating procedure. We verified that the Office of the Assistant Secretary of
    Defense for Command, Control, Communications, and Intelligence, the
    directive’s proponent, had not approved an exception for PFPA or DPS, and none
    had been requested.


Summary
    We found that with the exception of PFPACI/IAD, the Defense organization
    policies and procedures concerning authorization of their criminal investigators to
    carry firearms in the performance of their duties comport with applicable DoD
    guidance. PFPACI/IAD does not have the authority to permit its criminal
    investigators to take home their Government-owned firearms.


Recommendations, Management Comments, and Evaluation
  Response
    A.1. We recommend that the Director, Naval Criminal Investigative Service,
    revise NCIS Administrative Manual 1 (NCIS 1) to comply with Secretary of
    the Navy Instruction 5500.29B, “Use of Deadly Force and the Carrying of
    Firearms By Personnel of the Department of The Navy In Conjunction With
    Law Enforcement, Security Duties And Personal Protection,” September 28,
    1992, by adding the requirement for a termination date that is not later than

    10
     Secretary of the Navy Instruction 5500.29b, “Use of Deadly Force and the Carrying of Firearms
     By Personnel of the Department of The Navy In Conjunction With Law Enforcement, Security
     Duties And Personal Protection,” September 28, 1992, paragraph 4b; and NCIS Manual for
     Administration (NCIS 1), chapter 34, “Firearms, Use of Force, Oleoresin Capsicum, and
     Ammunition,” April 1999, paragraph 34-2.2a.



                                             6
1 year from the date of the authorization for criminal investigators to carry
personally owned firearms while performing official duties, as well as
providing a notice to criminal investigators that only Government
ammunition may be used in personally owned firearms while performing
official duties.

Navy Comments. The Navy partially concurred, stating that Secretary of the
Navy Instruction 5500.29b will be revised, and NCIS will add a notice in NCIS 1,
section 34-4.1a concerning the use of Government ammunition in personally
owned firearms. According to the Navy, however, NCIS requested an exemption
from the yearly reauthorization requirement and, therefore, does not intend to
revise NCIS 1 to require a 1-year termination date for personally owned firearm
authorizations.

Evaluation Response. The Navy comments are responsive. If the NCIS
exception to Secretary of the Navy Instruction 5500.29b is approved, the Navy
should provide copies of the revision. If the exception is not approved, NCIS
should revise the manual in accordance with our recommendation.

A.2. We recommend that the Director, Pentagon Force Protection Agency
take immediate action to ensure Pentagon Force Protection Agency Criminal
Investigation and Internal Affairs Directorate firearms are returned to a
designated control point at the end of each shift in accordance with DoD
Directive 5210.56, “Use of Deadly Force and the Carrying of Firearms by
DoD Personnel Engaged in Law Enforcement and Security Duties.”

Pentagon Force Protection Agency Comments. The Director, Administration
and Management, Office of the Secretary of Defense, to whom PFPA reports, did
not concur. The Director asserted that our recommendation was based on an
improper and incomplete reading of DoD Directive 5210.56. According to the
Director, under a reasonable interpretation of DoD Directive 5210.56, DoD
Component heads (including the Director, Administration and Management, and
the Director, PFPA) have broad authorities, including the authority to authorize
their personnel to store duty weapons at personal residences. The Director
included a legal opinion from the Office of General Counsel, Washington
Headquarters Services (WHS) for support of that position.11 Based on that
position, the Director claimed that PFPA was in compliance with DoD
Directive 5210.56. The Director advised, however, that he and the Acting
Director, PFPA were undertaking a comprehensive review of current firearms
practices and policies, including whether or not, and under what circumstances, to
continue the current duty weapon storage authorizations. In addition, the Director
advised that PFPA intended to implement updated, comprehensive policies and
guidelines consistent with the legal and policy requirements.


11
  During fieldwork on another evaluation involving PFPA, WHS Office of General Counsel
 attorneys attempted to convince us that DoD Directive 5210.56 did not apply to PFPA, because
 PFPA operates under separate statutory authority and this authority specifically addresses DPS
 arming. In assessing the current PFPA arming practices, we considered both the direct statutory
 authority governing PFPA operations and the Secretary of Defense’s broad authority to arm
 civilian employees.



                                           7
Evaluation Response. We cannot accept the Director’s position. The current
PFPA weapons take home practice, (1) is inconsistent with the provisions of
section 2674, title 10, United States Code (10 USC 2674), the governing statute
for PFPA law enforcement and security operations; (2) is contrary to DoD policy
as articulated in DoD Directive 5210.56; (3) adversely effects the ability of PFPA
to protect Government-issued weapons; and (4) imposes substantial (but not
specifically quantifiable) liability risks on PFPA employees, as well as DoD.

The statute under which PFPA operates governs PFPA arming practices. Section
2674, paragraph (b)(1), title 10, United States Code, “Operation and Control of
Pentagon Reservation and Defense Facilities in National Capitol Region,”
specifically restricts authority for PFPA law enforcement and security personnel
to “. . . property occupied by, or under the jurisdiction, custody, and control of the
Department of Defense, and located in the National Capital Region.” The statute
also limits authority to arm such personnel, specifically providing that they “. .
. may be armed with appropriate firearms required for personal safety and for the
proper execution of their duties, whether on Department of Defense property or in
travel status [emphasis added]. . . .” The term “for proper execution of their
duties” is key in the provision. PFPA officers have law enforcement authority
only while on duty at a DoD property in the National Capital Region. In
authorizing arming during “travel status,” the statute permits PFPA law
enforcement and security personnel to remain armed when on duty and traveling
between DoD locations in the National Capital Region, where they have law
enforcement authority.12 However, the time PFPA officers and investigators
spend commuting between their personal residences and their jobs is not duty
time and does not and cannot constitute travel status for duty purposes. Arming
the individuals during that time is contrary to policy. The individuals are not on
duty and arming them is tantamount to arming private citizens. Such action has
substantial liability risks for both the individuals and DoD.

In addition to the authority under 10 USC 2674, the Secretary of Defense has
broad authority to issue firearms to DoD civilian employees under section 1585,
title 10 United States Code (10 USC 1585), “Carrying of Firearms.” The statute
provides that, “Under regulations to be prescribed by the Secretary of Defense,
civilian officers and employees of the Department of Defense may carry firearms
or other appropriate weapons while assigned investigative duties or such other
duties as the Secretary may prescribe.”

The statutory authority of 10 USC 1585 is the basis for the DoD-wide policy that
is promulgated in DoD Directive 5210.56. This directive enunciates the DoD
policy “. . . to limit and control the carrying of firearms by DoD military and
civilian personnel.” The Applicability and Scope section of the Directive, at
subparagraph 2.2 specifically “. . . authorizes DoD personnel to carry firearms
while engaged in law enforcement or security duties, protecting personnel, vital
Government assets, or guarding prisoners [emphasis added].” PFPA law
enforcement officers and investigators have authority to engage in the specified
activities only while on duty at a DoD property in the National Capital Region.
Accordingly, the authority contained in DoD Directive 5210.56 does not
12
  To provide otherwise would have required PFPA to maintain weapons at each DoD location in
 the National Capital Region, and have weapons issue and turn-in procedures at each location.



                                          8
authorize arming PFPA employees during off-duty travel between home and
work.

Since 1999, DPS or PFPA has lost, allegedly through theft, five Government
firearms during activities that were inconsistent with the statutory and policy
requirements relative to carrying firearms. In one case, an investigator reported
his Government firearm stolen from his privately owned vehicle, while the
investigator was off duty and attending a social event. In another case, a police
officer alleged that a girlfriend stole his Government firearm from his home. In a
third case, three PFPA firearms were recently reported stolen while PFPA
employees were on a personnel-recruiting trip for which the carrying of firearms
was not authorized. Those firearm losses would not have occurred had PFPA
complied with the statutory and policy requirements identified above.

In summary, under 10 USC 2674, PFPA authority to carry firearms is limited to
DoD property in the National Capital Region or duty travel between those
properties. In all other locations or circumstances, PFPA employees are under the
Secretary’s general authority for arming civilian employees pursuant to 10 USC
1585, and the Secretary has limited such arming to employees when they are
actually engaged in specific law enforcement and security duties. The Secretary
granted the authority to deviate from the regulatory requirement that all firearms
be returned to a designated control point at the end of the duty period to only four
individuals; specifically, the Secretaries of the Military Departments and the IG
DoD. Those four individuals may authorize their organization’s criminal
investigators to store Government weapons at the criminal investigator’s
residence or other non-Government storage facility. The Secretary did not grant,
however, the deviation authority to the Director of PFPA or the Director of
Administration and Management, and we do not believe it would be appropriate
to do so. Unlike the DCIO criminal investigators for which exceptions have been
granted, PFPA police officers and investigators have law enforcement authority
only when they are on duty at a DoD property in the National Capital Region.
Authorizing their arming during commute times between residences and jobs is
tantamount to arming private citizens and is improper.

In commenting on this final report, therefore, the Director, Administration and
Management should advise us of the date on which PFPA will comply with the
statutory and policy requirements that govern arming and weapons storage.




                                     9
B. Accountability, Control, and Storage of
  Firearms
    The criminal investigative organizations issue firearms to their investigators by
    way of a hand receipt. However, issue and accountability procedures by their
    supervising organizations vary widely. Although DCIA, DCIS, PFPACI/IAD,
    USACIDC, and NCIS criminal investigators are issued firearms that remain with
    them throughout their career, AFOSI criminal investigators are issued new
    firearms at each duty station. PFPA, with criminal investigators assigned to only
    one location, and AFOSI can more easily maintain accountability for firearms,
    because the firearms remain on the hand receipt of the local office and on the
    supporting installation account. The other Defense organizations must adjust
    firearms accountability at the agency’s firearms accounting system with each
    criminal investigator transfer. For DCIA, DCIS, and NCIS, updated entries into
    in-house accountability systems are required. Firearms accountability at those
    agencies goes directly from each Defense organization headquarters to the
    criminal investigator in the field.

    USACIDC, however, must complete several transactions to transfer
    accountability and reporting of a firearm from the losing property book officer to
    the gaining property book officer. In some cases, USACIDC transactions took
    from 9 months to as long as 2 and one-half years to complete.13
    Our only area of concern regarding storage of firearms for the Defense
    organizations pertained to policies on storage of firearms in vehicles, addressed in
    section C, later in this report. See Appendix C for individual agency compliance
    with DoD guidance. Specific areas of concern are discussed below.

    Random Sample Inventories. We inventoried law enforcement firearms at
    randomly selected locations within each Defense organization. Our sample size
    was 160 from 491 total locations.14 Defense organization representatives
    assigned to each location conducted the inventories and forwarded the results to
    us along with a signed statement that certifies each firearm was physically
    inspected and serial number recorded on the inventory document. We reconciled
    the certifications with the inventory documents the Defense organization




    13
      Although these cases are the exception, lateral transfers appear to take longer than necessary to
     complete. USACIDC has no established criteria for how long lateral transfers should take to
     complete.
    14
      We calculated a statistical sampling of locations for each Defense organization using a
     95-percent confidence level and l0-percent precision level. The numbers for the locations were:
     DCIS (30); DCIA (9); PFPACI/IAD (1); USACIDC (40); NCIS (40); and AFOSI (40). See
     Appendix A for technical information concerning sampling.



                                               10
headquarters and independent sources provided. We accounted for all firearms in
the sample.15

Inventory Procedures. Specific procedures for conducting inventories vary
slightly among the Defense organizations. Some of the Defense organizations
issue a firearms card to the criminal investigator. The firearms card lists the
make, model, and serial number of the assigned firearm. When the criminal
investigator takes the firearm from the storage container, the firearms card is put
in its place. For those Defense organizations that permit criminal investigators to
store firearms at their residences during non-duty hours, the firearm may remain
out of the storage container for extended periods. When conducting inventories,
some Defense organizations count the firearms card as the firearm itself for
inventory purposes; therefore, the firearm serial number is not physically verified.
Army written guidance permits that type of accountability for firearms.

At four of the randomly selected locations, representing two Defense
organizations, we suspected that the certifications submitted to us did not
represent a physical inspection of each weapon’s serial number as specified in our
inventory protocol and to which each Defense organization concurred. 16 At each
of those locations, the certification was not accurate. As a result, we dispatched
our evaluators to those locations and conducted an inventory. In each case, the
discrepancies that aroused our suspicion were rooted in the fact that the serial
number on each firearm had not been physically inspected. In the end, we
accounted for all firearms at those four locations.

DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
Ammunition, and Explosives,” August 12, 2000, requires unit-level firearm
inventories monthly by the number of firearms, and quarterly by serial number of
each firearm.17 PFPACI/IAD and USACIDC were in compliance with the
requirements. DCIA, DCIS, NCIS, and AFOSI were not in compliance. DCIA
recently requested an exemption to unit-level monthly and quarterly inventory
requirements; however, the exemption has not been approved.

DoD 5100.76-M requires that those personnel responsible for the accountability
of firearms shall be made aware of proper inventory procedures and the




15
  Determining there were no unaccounted firearms in our statistical sample leads to a difficulty in
 interpreting the results quantitatively. The fact that there were no firearms missing in the sample
 obviously does not guarantee there are no missing firearms in the entire population, because not
 every location or firearm was inventoried. However, the probability of unreconciled firearms in
 the Defense criminal investigator population is low.
16
  A similar practice was mentioned in a March 2001 Department of Justice IG report as a possible
 reason the INS could not account for numerous firearms.
17
  Paragraph C5.3.2 sets inventory requirements, and paragraph C1.2.7 permits heads of DoD
 Components to exempt arms issued to Component criminal investigators from the provisions of
 the manual. Only DCIS has such an exemption, and that exemption applies to only the monthly
 inventories by the number of firearms assigned.



                                           11
importance of accurate receipt, dispatch, and inventory records.18 In addition, the
DCIOs each have Component-level policies for ensuring that those responsible
for the accountability of firearms are trained in those duties.19 However, only
USACIDC and AFOSI follow existing guidance to ensure the individuals are
trained. No training programs are in place within DCIA, DCIS, PFPA, or NCIS
that ensure those responsible for the accountability of firearms are trained in those
duties.

DoD 5100.76-M requires DoD Components to establish procedures that ensure
only authorized firearms are procured, and that unauthorized or excess
requisitions are rejected.20 USACIDC, NCIS, and AFOSI have such procedures,
including tables of allowances that govern the number and type of firearms each
is authorized. DCIS, DCIA, and DPS (DPS procures firearms for PFPACI/IAD),
do not use tables of allowances, and no written guidelines exist for governing the
number or type of firearms each is authorized.

DoD Registry. Of the six Defense organizations, four of the organizations have
written procedures for updating the Component Registries, which, in turn, update
the DoD Registry. Neither DLA nor Washington Headquarters Services has
written policy or guidance for DCIA or PFPACI/IAD, respectively, to submit
updates to their Component Registries.

The DoD Registry did not have current accountable activity data on numerous
firearms included in our review. We based that determination on the results of
our reconciliation process of random Defense organization inventories and on the
results of the specific firearms queries sent to the DoD Registry. While the
DoD Registry is an outstanding tool for locating small arms within DoD, that
capability is reduced when agencies fail to comply with reporting requirements,
or do not report in a timely manner.

DCIS. The DCIS Special Agents Manual requires that firearms instructors verify
serial numbers of criminal investigators’ firearms during quarterly qualification
and report the verification to the firearms coordinators. DCIS has been in
compliance with the requirement since only January 2002. Since approximately
1999, DCIS conducted only annual firearms inventory verifications throughout

18
  Paragraph C2.1.6. “Prior to assumption of such duties (and at least annually thereafter),
 personnel responsible for the accountability of AA&E [arms, ammunition, and explosives] shall
 be made aware of the importance of accurate receipt, dispatch, and inventory records. Adherence
 to the requirement for scheduled inventories will be stressed, as well as procedures for
 processing inventory adjustment gains and losses as prescribed in DoD 4140.1-R” (Materiel
 Management Regulation).
19
  Inspector General Manual 4140.1, “Property Management Program,” March 29, 2001,
 paragraph 3.5.j; Army Regulation 190-11, “Physical Security of Arms, Ammunition, and
 Explosives,” February 12, 1998, paragraph 2-10; Chief of Naval Operations Instruction
 5530.13B, “Department of the Navy Physical Security Instruction for Conventional Arms,
 Ammunition, and Explosives,” July 5, 1994, paragraph 0204; and Air Force Manual 23-110,
 volume 2, part 13, “Standard Base Supply Customer’s Procedures,” January 1, 2002, paragraph
 1.17.2.1.
20
     Paragraph C5.3.1.



                                          12
DCIS. No record of inventories being conducted prior to 1999 exists. The lack of
100-percent quarterly inventories allowed a major discrepancy to exist for
approximately 5 years after a Government-owned firearm was mistakenly
exchanged with a personal firearm of the same make and model. We presume the
mistaken exchange occurred in 1994 because during this evaluation we
discovered that a criminal investigator took the Government firearm with him
when he transferred from DCIS to another Federal agency. Apparently, the
criminal investigator mistakenly left behind his personal firearm. Further, the
criminal investigator’s personal firearm, which had previously been listed on the
inventory as a personal firearm, ended up on both the DCIS and OIG Government
firearms inventories without a source document indicating the firearm’s origin.
The missing Government firearm continued to be accounted for on both the DCIS
and OIG Government inventories until a 1999 inventory discovered the loss
(addressed further in section C). The criminal investigator’s personal firearm
continued on the Government inventory until the mistake was discovered in 2002.

DCIS maintains an independent firearms inventory database that contains
information about the location of all DCIS firearms and the criminal investigators
to whom the firearms are assigned. DCIS is in the process of adding personally
owned firearms to that database. The result will be a master record of the firearm
each criminal investigator carries. As criminal investigators re-qualify with the
firearms, the personally owned firearms are added from the qualification records
to the database.

For accountability purposes, Office of Administration and Information
Management, Office of the IG DoD personnel enter DCIS firearms data into the
Defense Property Accountability System (DPAS). Inspector General Manual
4140.1, “Property Management Program,” March 29, 2001,21 requires that all
receipts, issues, turn-ins, transfers, and shipments of firearms be reported to the
Office of Administration and Information Management. The transaction
information is needed to keep DPAS current. The DCIS practice, however, has
been to only provide an annual update for activity on the firearms inventory.
Therefore, DCIS firearms data within DPAS is often not up to date.

DCIA. DLA Directive 4160.9, “DLA Retail Supply and Property
Accountability,” August 13, 1996,22 has required DLA to use DPAS since 1996 to
record property that requires accountability and to maintain hand receipts for
controlled items that are sensitive. The directive also requires DLA to appoint an
Accountable Property Officer responsible for maintaining personal property
accountability records. DLA does not use DPAS for firearms accountability, and
no Accountable Property Officer is appointed for the 30 firearms assigned to
DCIA. The individual who controls firearms has inherent responsibility based on
duty position, but is not accountable on a property hand receipt as required.
When DCIA received their current firearms, the DCIA Firearms Program
Manager signed a hand receipt from DLA warehouse personnel for all of the
firearms. The DCIA firearms were never transferred to the current Firearms
Program Manager on either a hand receipt or other document. Although DLA has

21
     Paragraph 3.5a(2).
22
     Paragraph 3.



                                     13
   Accountable Property Officers for other DLA property, no Accountable Property
   Officer exists for the 30 firearms assigned to DCIA.

   NCIS. NCIS is not in compliance with DoD and Naval Sea Systems Command
   inventory guidance. 23 Specifically, NCIS does not require monthly inventories
   by the number of firearms assigned, and monthly counts are not conducted. NCIS
   1, chapter 34, paragraph 34-2.15.c requires only a serial number inventory of all
   NCIS-issued firearms during quarterly firearms qualification. Unassigned
   firearms are not included in that requirement and are inventoried only during the
   annual inventory. Although NCIS policy requires annual firearms inventories,
   these inventories were not conducted during 2001 and 2002. The annual
   inventory conducted in 2002 was poorly documented. The field offices reported
   inventory results by way of e-mail instead of signed certifications that NCIS
   policy requires, and headquarters NCIS had no overall documentation that reflects
   the results of the inventory and the date completed.

   AFOSI. Base supply personnel conduct semiannual inventories of AFOSI
   firearms, and AFOSI conducts command-wide annual firearms inventories.
   Firearms inventories are also conducted during AFOSI Inspector General
   inspections each 2 to 3 years. Monthly counts by the number of firearms
   assigned, and quarterly inventories by serial number, are not conducted
   throughout the command in accordance with DoD and Air Force guidance.24
   Local base supply personnel train AFOSI equipment custodians, but we have
   some concern that the training may not include the requirement for monthly and
   quarterly inventories at the unit level. That condition is evidenced by individuals
   at various AFOSI locations not being aware of the requirement. Also, at some
   locations, the firearms cards were inventoried in place of the firearms.


Summary
   DoD guidance requires unit-level firearms inventories monthly by count and
   quarterly by serial number. Although most of the Defense organizations are not
   following that guidance, we accounted for all of the firearms in our random
   sample inventories. Those Defense organizations not in compliance with DoD
   guidance conducted inventories at least annually. During the random sample
   inventories, discrepancies as a result of improperly conducted inventories existed,
   including the use of existing inventory records and firearms qualification records
   instead of actually looking at the firearms. DoD 5100.76-M allows exceptions to
   inventory requirements. Some of the Defense organizations did not maintain
   current firearms accountability records, did not have a recurring training program
   for personnel responsible for firearms accountability, or did not establish
   procedures for ensuring only authorized firearms are procured.

   23
     DoD 5100.76-M, paragraph C5.3.2; and Naval Sea Systems Command Instruction 8370.2,
    “Small Arms and Weapons Management Policy and Guidance Manual,” June 12, 1989,
    paragraph 2-205.1.
   24
     Air Force Instruction 31-101, “The Air Force Installation Security Program,” June 1, 2000,
    paragraph 23.4.



                                             14
Recommendations, Management Comments, and Evaluation
  Response
    B.1. We recommend that the Directors, Defense Logistics Agency Criminal
    Investigations Activity; Defense Criminal Investigative Service; Naval
    Criminal Investigative Service; and the Commanders, U.S. Army Criminal
    Investigation Command; and Air Force Office of Special Investigations re-
    evaluate their inventory procedures and practices and ensure compliance
    with DoD firearms inventory requirements, and that serial number
    inventories require that each firearm be physically inventoried.

    Defense Logistics Agency Criminal Investigations Activity Comments. DCIA
    concurred, stating that its request for an exception to DoD 5100.76-M inventory
    procedures was approved. DCIA is now required to conduct a 100 percent annual
    inventory in which it inspects each weapon by serial number and inspect weapons
    by serial number during supervisory visits to DCIA offices.

    Defense Criminal Investigative Service Comments. DCIS concurred, stating
    that it will incorporate changes in its Special Agent Manual.

    Navy Comments. The Navy concurred, stating that it will ensure quarterly and
    yearly inventories in accordance with DoD policy and that it is requesting an
    exemption to the unit-level monthly inventory requirement included in Navy
    policy.

    Army Comments. The Army concurred, stating that it has revised its guidance
    to ensure that all firearms are physically inspected during monthly weapons
    inventories. In addition, the Army is reemphasizing its criteria for lateral firearm
    transfers to the appropriate personnel.

    Air Force Comments. The Air Force concurred, stating that AFOSI guidance
    will be revised to incorporate the DoD inventory requirements. In addition,
    AFOSI added the DoD inventory requirements as an inspection item in its
    no-notice random and unit compliance inspections.

    Evaluation Response. The management comments are responsive; however, the
    DCIS and Air Force comments do not include estimated completion dates for the
    promised actions. Comments on the final report should include estimated
    completion dates. When complete, we request copies of the relevant portions of
    the revised policy/guidance documents.

    B.2. We recommend that the Directors, Defense Logistics Agency Criminal
    Investigations Activity; Defense Criminal Investigative Service; Pentagon
    Force Protection Agency; Naval Criminal Investigative Service; and the
    Commander, Air Force Office of Special Investigations establish recurring
    awareness programs that ensure individuals responsible for the
    accountability of arms, ammunition, and explosives are aware of their
    responsibilities in accordance with DoD 5100.76-M, “Physical Security of
    Sensitive Conventional Arms, Ammunition, and Explosives,” and
    Component guidance.


                                         15
Defense Logistics Agency Criminal Investigations Activity Comments. DCIA
concurred, stating that it instituted scheduled, recurring training during which
investigators are instructed on their responsibilities concerning the accountability
of arms, ammunition, and explosives in accordance with DoD 5100.76-M. The
training is documented in each individual’s weapons folder.

Defense Criminal Investigative Service Comments. DCIS concurred, stating
that it will incorporate policy changes in its Special Agents Manual.

Pentagon Force Protection Agency Comments. The Director, Administration
and Management, Office of the Secretary of Defense, to whom PFPA reports,
concurred, stating that it is scheduling training during March 2003 for applicable
personnel.

Navy Comments. The Navy concurred, stating that it is establishing an
awareness-training program to ensure that all of the required training is conducted
and documented.

Air Force Comments. The Air Force concurred, stating that AFOSI guidance
will be revised to reflect that appropriate individuals receiving annual awareness
training in accordance with DoD guidance is required.

Evaluation Response. The Director, Administration and Management comments
are not fully responsive. While scheduling training for March 2003 is a step in
the right direction, no indication exists that PFPA intends to establish recurring
training that will ensure personnel remain aware of the requirements. In
responding to the final report, copies of policies or directives implementing a
recurring awareness program should be provided.

Other management comments are responsive. The DCIS and Air Force comments
do not, however, include estimated completion dates for the promised actions.
Comments on the final report should include estimated completion dates. When
completed, we request copies of the relevant portions of the revised
policy/guidance documents.

B.3. We recommend that the Inspector General of the Department of
Defense; the Director, Washington Headquarters Services; and the Director,
Defense Logistics Agency establish written criteria for the quantity and type
of firearms authorized to have in their inventories and procedures for
procuring them.

Inspector General of the Department of Defense Comments. IG DoD
concurred, stating that action is under way to implement the recommendation in
Inspector General Manual 4140.1 and should be completed by May 1, 2003.

Washington Headquarters Services Comments. WHS concurred, stating that
PFPA is preparing a table of allowances for weapons, and the action would be
complete by March 31, 2003.

Defense Logistics Agency Comments. DLA concurred, stating that it will
include a table of authorizations in the next revision of DLA Manual 5705.1,


                                     16
“Law Enforcement Criminal Investigations Manual,” and the table of
authorizations will include all weapons, devices, and equipment authorized for
use by DLA investigative personnel.

Evaluation Response. The management comments are responsive. DLA did not,
however, include estimated completion dates for the actions promised.
Comments on the final report should include the estimated completion dates.
When complete, we request copies of the relevant portions of the revised
policy/guidance documents.

B.4. We recommend that the Directors, Defense Logistics Agency and
Washington Headquarters Services, establish written policy for reporting
required firearms information to their Component Registries for inclusion in
the DoD Registry.

Defense Logistics Agency Comments. DLA did not concur, stating that written
guidance for reporting firearms information in the DLA Small Arms Serialization
Program already exists in DLA Regulation 7510.3, “Control of Small Arms by
Serial Number.”

Washington Headquarters Services Comments. WHS concurred, stating that it
is working with PFPA on the issues and expects to resolve them by
March 31, 2003.

Evaluation Response. DLA comments are not fully responsive. DLA
Regulation 7510.3 establishes specific responsibilities for DLA Field Activities
and the DLA headquarters Executive Director of Technical and Logistics
Services. The regulation does not provide guidance for reporting of small arms
for other headquarters organizational components, such as DCIA. Additionally,
DLA Regulation 7510.3 specifies that detailed operating procedures were
implemented within the DLA Base Operations Support System. However, DCIA
small arms are not included in that system. We recognize that the DCIA firearms
program manager and the Chief of the Law Enforcement/Physical Security
Division, DLA Support Services, headquarters DLA, are both aware of the
requirement to notify their Component Registry at Battle Creek, Michigan, if a
firearm is lost or stolen. Nevertheless, DLA should update DLA Regulation
7510.3 to include written policy and procedures for reporting DCIA small arms to
the DLA Component Registry for inclusion in the DoD Registry.

In commenting on this final report, the Director, Defense Logistics Agency
should advise us of the date on which the agency expects to update the guidance
for reporting required firearms information to the DLA Component Registry and,
in turn, the DoD Registry. When complete, we request copies of the relevant
portions of the revised policy/guidance documents.

WHS comments are responsive. When complete, we request copies of the
relevant portions of the revised policy/guidance documents.




                                   17
B.5. We recommend that the Director, Defense Criminal Investigative
Service enforce the requirement to promptly notify the Office of
Administration and Information Management of receipt, issue, turn-in,
transfer, shipment, or loss of Defense Criminal Investigative Service
firearms.

Defense Criminal Investigative Service Comments. DCIS concurred, stating
that they will incorporate changes to existing policy in its Special Agents Manual.

Evaluation Response. DCIS comments are responsive, but do not include an
estimated completion date for the revision. In commenting on this final report,
DCIS should advise us of the date on which it expects to complete and implement
the revision. When complete, we request copies of the revised policy.

B.6. We recommend that the Director, Defense Logistics Agency ensure that
all DLA Criminal Investigations Activity firearms are entered into the
Defense Property Accountability System in accordance with DLA Directive
4160.9, “DLA Retail Supply and Property Accountability,” and assign an
Accountable Property Officer for the firearms assigned to the DLA Criminal
Investigations Activity.

Defense Logistics Agency Comments. DLA concurred, stating that an
Accountable Property Officer will be assigned for DCIA firearms, and that officer
will be required to ensure the firearms assigned to DCIA are entered into the
Defense Property Accountability System.

Evaluation Response. The DLA comments are responsive, but do not include an
estimated completion date for the actions. In commenting on this final report,
DLA should include estimated completion dates. When complete, we request
copies of the relevant portions of the revised policy/guidance documents.




                                    18
C. Lost, Stolen, and Missing Firearms
    Each Defense organization that we examined had written policy and guidance for
    reporting and investigating incidents of lost, stolen, and missing firearms. Each
    organization conducted investigations into each instance of lost, stolen, and
    missing firearms. However, the report formats differ. Each organization also had
    completed financial liability investigations. USACIDC uses the Department of
    Army Form 4697, “Report of Survey,” and the other five Defense organizations
    use the DD Form 200, “Financial Liability Investigation of Property Loss.” Some
    also use a Report of Investigation format similar to the format they use in criminal
    investigations. See Appendix D for individual organization compliance with DoD
    guidance.

    Among the 6 Defense organizations, a total of 8 incidents involved 12 lost, stolen,
    or missing firearms during FY 1999 through FY 2001. The Defense
    organizations recovered 9 of the 12 firearms. The table below shows incidents by
    Defense organization.

                Lost, Stolen, and Missing Firearms (FY 1999 through 2001)

                     DCIS      DCIA       PFPACI/IAD USACIDC                     NCIS       AFOSI

    Incidents           4         0                 1                1             1            1

    Inquiry             425      N/A                1                1              026         1
    Initiated

    Firearms            8        N/A                1                1             1            1
    Involved

    Firearms            8        N/A                0                0             1            0
    Recovered



    Case File Review. We reviewed all seven of the reports the Defense
    organizations initiated concerning the incidents. Of the seven, two were
    incomplete. In one case, PFPACI/IAD conducted an investigation, but only
    partially completed the DD Form 200, and neither the appointing authority nor
    approving authority signed the form. The responsible officer did review the form
    and indicated that negligence or abuse was evident or suspected but did not
    forward the action to the appointing authority. Therefore, no financial liability
    determination was made as DoD 7000.14R, “Financial Management Regulation,”


    25
     In one incident, DCIS recovered the firearm prior to the DD Form 200 being completed, and it
     was cancelled.
    26
      In this case, NCIS recovered the firearm approximately three hours after it was reported stolen
     and no DD Form 200 was initiated.



                                               19
   April 1998,27 requires. In the second case, DCIS completed a DD Form 200 in
   March 2000, but the form does not reflect the substantive efforts DoD 7000.14-
   R28 requires. The DD Form 200 also indicates by check box that negligence or
   abuse was evident or suspected, yet no information in the report mentioned either
   negligence or abuse, and no further investigative activity occurred until 2002.
   Once the firearm was located, the circumstances were documented in a
   memorandum for record. Both of the incomplete DD Forms 200 resulted in
   removal of the firearms from the respective property accounts, but no financial
   liability determination was made in either case.

   In reviewing the circumstances surrounding the 12 lost or stolen firearms, 4 were
   stolen from vehicles, 1 was stolen from checked baggage, 5 were missing and
   later found, 1 was left in a Government vehicle when it was turned in for
   maintenance, and 1 was inadvertently exchanged with a personal firearm. The
   inadvertent exchange occurred in approximately 1994. The discrepancy was
   resolved in 2002. The Government-owned firearm was retrieved, and the
   personally owned firearm was returned to its owner.

   Firearms Storage in Vehicles. In 50 percent (4) of the reported incidents of lost
   or stolen firearms during FY 1999 through FY 2001, the incident occurred while
   the firearm was left unattended in a vehicle. DCIS, PFPACI/IAD, USACIDC,
   and NCIS all reported a firearm stolen from a vehicle during that period. Among
   those four Defense organizations, only USACIDC had policy addressing storage
   of firearms in vehicles, which was a local command-level policy. As a result of
   their losses, PFPACI/IAD established policy that prohibits storage of firearms in
   vehicles, and DCIS set policy that allows temporary storage of firearms in
   vehicles but prohibits overnight storage. NCIS still has no policy addressing this
   issue, and DLA and AFOSI both prohibit storage of firearms in vehicles. Of the
   four firearms lost or stolen from vehicles, two were recovered.


Summary
   The six Defense organizations follow the basic DoD guidance concerning lost,
   stolen, and missing firearms. In five of the eight incidents of lost or stolen
   firearms, the investigations were thoroughly conducted and well documented. In
   one case, the Defense organization failed to follow specific investigative
   procedures for loss of Government property, contributing to the firearm being lost
   for several years. In another case, the DD Form 200 was never fully completed,
   and no financial liability determination was made. In the third case, the firearm


   27
     Volume 12, chapter 7, “Financial Liability of Government Property,” paragraphs 070205 and
    070208.
   28
     Volume 12, chapter 7, paragraph 070203.A., states that an inquiry shall be initiated immediately
    after discovery of a loss, damage, or destruction (of Government property). At a minimum, the
    inquiry should identify what happened, how it happened, where it happened, who was involved,
    when it happened, and any evidence of negligence, willful misconduct, or deliberate
    unauthorized use or disposition of the property.



                                             20
    was recovered within several hours and no investigation was conducted. Two of
    the Defense organizations do not have organization-wide policy on firearms left
    unattended in vehicles.


Recommendations and Management Comments
    C.1. We recommend that the Commander, U.S. Army Criminal
    Investigations Command, and the Director, Naval Criminal Investigative
    Service establish command-wide policies concerning leaving firearms
    unattended in vehicles.

    Army Comments. The Army concurred, stating that it established a command-
    wide policy regarding leaving firearms unattended in vehicles, and that
    USACIDC amended their regulations to include the new policy.

    Navy Comments. The Navy did not concur, stating that strict policies on leaving
    firearms unattended in vehicles would unduly hinder the agent’s flexibility in
    some situations, and that current NCIS policy makes each agent responsible for
    the safeguarding of their firearms. Additionally, NCIS stated they decided not to
    establish a policy that would preclude the storage of a firearm in a secured
    vehicle, because special circumstances could exist that would be in the best
    interest of the agency to do so.

    Evaluation Response. The Navy comments are not responsive. While we
    understand their desire not to preclude the temporary storage of firearms in a
    vehicle in every case, our recommendation did not request them to do so. We
    simply asked that the Navy establish some type of policy discussing it. Some of
    the agencies in our evaluation prohibit the storage of firearms in a vehicle under
    any circumstances, while others permit the storage on a temporary or exigent
    circumstance basis. We feel the Navy should have a command-wide policy that
    discusses leaving firearms unattended in vehicles, whether they permit it or not.
    The Navy is currently the only agency in our evaluation that does not have such
    written policy. For these reasons, the Navy should reconsider its response.

    In commenting on this final report, the Navy should tell us when they expect to
    have a policing addressing leaving firearms unattended in a vehicle, and when
    complete, we request copies of the relevant portions of the revised
    policy/guidance documents.

    The Army comments are responsive. When complete, we request copies of the
    relevant portions of the revised policy/guidance documents.

    C.2. We recommend that the Inspector General of the Department of
    Defense; and the Directors, Washington Headquarters Services; and
    Pentagon Force Protection Agency, provide additional management
    oversight for properly completing and processing the DD Form 200,
    “Financial Liability Investigation of Property Loss,” in accordance with
    DoD 7000.14-R, “Financial Management Regulation,” volume 12, chapter 7,
    paragraph 070203.


                                        21
Inspector General of the Department of Defense Comments. IG DoD
concurred, stating that action is being taken to implement the recommendation
into Inspector General Manual 4140.1, “Property Management Program.”

Washington Headquarters Services Comments. WHS concurred, stating that
PFPA is reorganizing their logistics functions, and management oversight with
regard to property loss and financial liability will be an area of renewed vigilance
for PFPA management and logistics personnel.

Evaluation Response. All comments are responsive. When complete, we
request copies of the relevant portions of the revised policy/guidance documents.




                                     22
Appendix A. Scope and Methodology
   We performed this evaluation from February to October 2002. The evaluation
   focused on the Defense organizations’ policies and practices for authorizing their
   criminal investigators to carry firearms; the accountability, control, and storage of
   firearms issued to criminal investigators within their organizations; and
   investigating incidents of lost, stolen or missing firearms. We included firearms
   carried by criminal investigators on a daily basis, including personal firearms that
   DCIS and NCIS have authorized their criminal investigators to carry while on
   duty, as well as other firearms used for law enforcement activities. We reviewed
   DoD and Defense organization policies that govern the firearms programs and
   visited the Department of Justice to learn the causes of the loss of firearms within
   agencies under their control. In addition, we reviewed firearms inventories for
   each of the Defense organizations to determine the sufficiency with which the
   inventories were conducted, record-keeping practices, and the number of firearms
   unaccounted for. We conducted inventories from a statistical sample within each
   Defense organization. Using sources from outside each Defense organization, we
   obtained a list of the firearms each Defense organization is supposed to have on
   hand. Further, we reviewed all of the investigative reports concerning lost,
   missing, or stolen firearms covering the period FY 1999 through FY 2001 to
   determine the extent to which incidents of lost, stolen, or missing firearms were
   properly reported and investigated.

   Use of Computer-Processed Data. We did not use computer-processed data in
   this evaluation.

    Statistical Sampling Methodology. We designed a statistical sample to
   estimate the proportion of unreconciled firearms assigned to criminal
   investigators of the six Defense organizations. Using a list of the total number of
   locations where firearms are assigned that each Defense organization provided, a
   stratified cluster-sampling plan was used, employing the six Defense
   organizations as the basis of stratification, and locations (offices or divisions)
   within the Defense organizations as clusters. The population for the Defense
   organizations was stratified in terms of locations as tabulated below:




                                        23
                              Population Size                  Sample Size
Stratum                       (# of Locations)               (# of Locations)

USACIDC                               134                            40

NCIS                                  122                            40

AFOSI                                 168                            40

DCIS                                      57                         30

DCIA                                       9                          9

PFPACI/IAD                                 1                          1

 Total                                491                          160

The sample locations were randomly selected for each Defense organization
stratum. For statistical sampling purposes, each sample location was treated as a
cluster of assigned firearms. We recorded serial numbers for all of the firearms
assigned to the activity associated with the cluster, and reconciled the local
firearms list and serial numbers with the list and serial numbers obtained from the
Defense organization or responsible component. We then recorded the total
firearms by location, noting those on the Defense organization or component
inventory, but not recorded locally, and those reported locally, but not on the
Defense organization or component inventory.

We found no missing firearms in our statistical sample, which leads to a difficulty
in interpreting the results quantitatively. Determining that no missing firearms in
our statistical sample existed does not guarantee no missing firearms in the entire
population because not every location or firearm was inventoried. Based on
calculations using the sample results, the unbiased statistical estimate is that the
proportion of reconciliation discrepancies occurring in the population of Defense
criminal investigators is zero. Usually, calculating an upper bound value for the
estimated proportion recognizes the uncertainty inherent in using a statistical
sample to represent the entire population. However, no valid methodology exists
for calculating the upper bound of an estimated proportion when no discrepancies
are found in the sample. Therefore, we recommend that the statistical results be
interpreted qualitatively. The proportion of unreconciled firearms in the Defense
criminal investigator population is very small.

Use of Technical Assistance. Assistance with the design and interpretation of
the results of the statistical sampling was provided by the Technical Director and
analysts from the Quantitative Methods Division, Audit Followup and Technical
Support, Office of the Assistant Inspector General for Audit, IG DoD.




                                     24
Prior Coverage
     During the last 3 years, the Department of Justice, the IG DoD, and the Air Force
     have issued three reports concerning controls over firearms within the Federal
     Government. Unrestricted Department of Justice reports can be accessed over the
     Internet at http://www.usdoj.gov/oig/audit. Unrestricted Inspector General of the
     Department of Defense reports can be accessed at
     http://www.dodig.osd.mil/dcis/cipo/evals.htm. Certain Government users can
     access Air Force Audit Agency audit reports at http://www.afaa.hq.af.mil/.

Department of Justice
     Inspector General of the Department of Justice Report No. 02-31, “The
     Department of Justice’s Control Over Weapons and Laptop Computers,”
     August 2002

IG DoD
     IG DoD Report No. 9950006F, “CIPO Evaluation of the Defense Protective
     Service,” May 14, 1999

Air Force
     Audit Report Number 99061003, “The Air Force Audit Agency Audit of Small
     Arms Management,” 25 September 2000




                                         25
Appendix B. Policy and Regulatory Guidance
            Regarding Authorization to Carry
            Firearms
                                        Defense Organizations in Compliance with DoD Policy

    DoD Directive 5210.56              DCIS1   DCIA2     PFPACI/IAD3       USACIDC4        NCIS5     AFOSI6

    DoD personnel regularly
    engaged in law enforcement or
    security duties:
      - shall be armed                  Yes     Yes           Yes              Yes          Yes           Yes
      - continuing authorization to
        carry firearms                  Yes    N/A7           No8              Yes          Yes           Yes

    Authorization to carry firearms     Yes     Yes           Yes              Yes          Yes           Yes
     in writing

    Complete required training9
    within preceding 12 months          Yes     Yes          Yes10             Yes         Yes11          Yes

    Annual firearms qualification      Yes      Yes           Yes              Yes          Yes           Yes

    Individual qualification records    Yes     Yes           Yes              Yes          Yes           Yes
    on file while assigned firearm

    Only Government-owned
     weapons and ammunition             Yes     Yes           Yes              Yes          Yes           Yes
     authorized for official duties
     except DCIOs with approved
     exception

    Personnel authorized to retain      Yes     Yes           No12             Yes          Yes      Yes
    firearms at residence
    or non-Government locations
        - safety lock devices and       Yes     Yes           Yes              Yes          Yes           Yes
          instructions provided with
          firearms




1
 DCIS Special Agent Manual, chapter 38 (section 3811; section 3817, paragraphs 2.a through 2.e, 4, 6,
and 14; section 3809, paragraphs 2 and 3; section 3812, paragraph 1; section 3811, paragraph 1; section
3813, paragraph 6)




                                                   26
2
  DLA Directive 5715.1, “Carrying of Firearms and the Use of Force by DLA Personnel,” paragraphs
E.1.b, E.1.c, E.1.g, E.3, and F.1.b; DCIA Policy Letter #02-11, “DCIA Firearms and Use of Force,” April
2002.
3
  DoD Directive 5210.56, “Use of Deadly Force and the Carrying of Firearms by DoD Personnel Engaged
in Law Enforcement and Security Duties,” paragraph 4.1; Washington Headquarters Services
memorandum, November 29, 1999, “Designated Criminal Investigations Firearms Custodian”;
DPS General Order 1005.03, “Semi-Annual Weapons Qualification,” August 10, 2002; Standard
Operating Procedure CI-900.03, “DPS Criminal Investigators Take Home Weapons Procedures,”
paragraphs 2, 2G and 2A.
4
  Army Regulation 190-14, “Carrying of Firearms and Use of Force for Law Enforcement and Security
Duties,” March 12, 1993, paragraphs 1-5.a., 1-5.b., 2-2.c.(1), 2-5, 2-4, 4-1.b.(6); U.S. Army Criminal
Investigation Command Regulation 195-1, “Criminal Investigations Operational Procedures,”
January 1, 2001, paragraphs 17-6.a, 17-3, 17-20.d, 17-20.f, and 17-11.
5
  Secretary of the Navy Instruction 5500.29B, “Use of Deadly Force and the Carrying of Firearms by
Personnel of the Department of the Navy in Conjunction With Law Enforcement, Security Duties and
Personal Protection,” September 1992, paragraphs 4.a, 4.b, 4j, 4h, Enclosure 1: paragraphs E and D; Naval
Criminal Investigative Service Manual for Administration (NCIS 1), chapter 34, August 20, 2002,
paragraphs 34-2.1a, 34-2.2a, 34-2.12.a, 34-2.11c, 34-2.3a(1), 34-2.19; Naval Criminal Investigative Service
Manual for Criminal Investigations (NCIS 3), chapter 1, July 1998, paragraph 1-4.3.
6
  Air Force Instruction 31-207, “Arming and Use of Force by AF Personnel,” 1 Sep 99, paragraphs 2.7.1,
2.1, and 2.10.1; Air Force Instruction 36-2226, “Combat Arms Program,” 15 May 2000, paragraph 6.1.1;
Air Force Office of Special Investigations Manual 71-113, “Firearms, Use of Force, and Apprehension
Tactics,” May 28, 2000, paragraphs 1.1, 1.1.1, 1.1.1.1.1, 2.2.4, 2.2.4.1.1, 2.2.4.1.2, 3.1, and 3.7.
7
  The DLA general policy is that no one in DCIA has continuing authorization to carry firearms.
8
  See discussion in section A of the main body of the report.
9
  DoD-required training includes qualification training, proficiency testing, and use of deadly force
training.
10
   PFPACI/IAD investigators receive Use of Force training during semiannual firearms qualification. The
requirement is not included in their written policy and not documented in their training records. We noted
that the semiannual qualification requirement is, however, included in a General Order and is documented.
11
   Although NCIS criminal investigators receive use of force training during quarterly firearms
qualifications, the requirement is not included in NCIS written policy. We noted that NCIS firearms
qualification requirements are included in NCIS 1, chapter 34. Additionally, all of the training
requirements are included in Secretary of the Navy Instruction 5500.29B, Paragraph 4h.
12
   See discussion in section A.




                                                    27
Appendix C. Policy and Regulatory Guidance
            Regarding Accountability, Control,
            and Storage of Firearms
                                  Defense Organizations in Compliance with DoD Policy or Exempt1

    DoD Policy2                     DCIS3      DCIA4   PFPACI/IAD5      USACIDC6       NCIS7    AFOSI8

    DoD Components must              No9        No9         No9             Yes         Yes       Yes
    have adequate verification
    procedures to preclude
    unauthorized and excess
    requisitions

    Maintain records of              Yes        No10        Yes             Yes         Yes       Yes
    property accountability
    system to include
    documents assigning
    responsibility for property

    100% monthly count               No10       No10        Yes             Yes         No10      No10
    inventory

    100% quarterly inventory         Yes10      No10        Yes             Yes         No10      No10
    by unique item identifier

    Personnel made aware of          No10       No10        No10            Yes         No10      Yes10
    firearms accountability
    requirements11

    Firearms stored in arms          Yes        Yes         Yes             Yes         Yes       Yes
    room or GSA-approved
    Class 5 weapons storage
    container



1
  DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms, Ammunition, Explosives,”
August 2000, paragraph C1.2.7. On a case-by-case basis, the applicable heads of DoD Components may
exempt arms and ammunition issued to DoD Component criminal investigators from the provisions of the
Manual (except for loss reporting) if compliance would impede mission performance. Where such
exemptions are invoked, the affected arms and ammunition will be safeguarded and accounted for in a
manner prescribed by the heads of DoD Components.
2
  DoD 5100.76-M, paragraphs C5.3.1, C5.3.2, C2.1.6, C4.1, C4.2, C3.2.2, and C2.5; DoD Instruction
5000.64, “Defense Property Accountability,” August 13, 2002, paragraph 4.2; DoD 4140.1-R,
“DoD Material Management Regulation,” May 1998, paragraph C5.3.1; DoD Directive 4140.1, “Materiel
Management Policy,” January 4, 1993, paragraphs C5.3.3.2.2.1 and C5.3.3.2.5.8.




                                                 28
3
  IG Manual 4140.1, “Property Management Program,” March 29, 2001, paragraphs 3.5.a. and 3.5.j;
DCIS Special Agent Manual, chapter 38 (section 3813, paragraphs 3, 8 and 9).
4
  DLA Directive 4160.9, “DLA Retail Supply and Property Accountability,” August 13, 1996, paragraphs
E.3 and F; DCIA Policy Letter #02-11, “DCIA Firearms and Use of Force,” April 2002, paragraph C.2.
5
  General Order No. 1500.7, “Weapons Accountability,” 9 July 1999, paragraphs 1 and 2; DoD 5100.76-
M, paragraphs C3.2.2 and C4.1).
6
  Army Regulation 710-2, “Inventory Management Supply Policy Below the Wholesale Level,”
October 31, 1997, paragraphs 2-6, 4-12, and Table 2-1; Department of the Army Pamphlet 710-2-1, “Unit
Supply Procedures,” December 31, 1997; U.S. Army Criminal Investigation Command Regulation 710-5,
“Materiel Management System,” May 3, 1996, paragraphs 2.2, 3.2.a, and 3.3.a; Army Regulation 190-11,
“Physical Security of Arms, Ammunition, and Explosives,” February 12, 1998, paragraphs 2-10 and 3.8;
U.S. Army Criminal Investigation Command Regulation 195-1, “Criminal Investigations Operational
Procedures,” January 1, 2001, paragraph 17-10.
7
  NCIS Manual for Administration (NCIS 1), chapter 7, “Supply, Property, and Equipment,” paragraph 7-
2; NCIS 1, chapter 34, paragraphs 34-2.15a, 34-2.14b, and 34-2.16; Naval Sea Systems Command
Instruction 8370.2, “Small Arms and Weapons Management Policy and Guidance Manual,” June 12, 1989,
paragraphs 2-205.1 and 3-602; Chief of Naval Operations Instruction 5530.13B, “Department Of The
Navy Physical Security Instruction for Conventional Arms, Ammunition, and Explosives (AA&E),” June
2, 1999, paragraphs 0601.b(3)(a), 0204, and 0401.d.
8
  Air Force Instruction 23-111, “Management of Government Property in Possession of the Air Force,”
February 1, 1996, paragraphs 2, 5, and 6; Air Force Instruction 31-101, “The Air Force Installation
Security Program,” June 1, 2000, paragraphs 23.3.4 and 23.4; AFOSI Instruction 23-101, “Logistics
Functions,” May 10, 2001, paragraph 4.1; Air Force Manual 23-110, volume 2, Part 13, “Standard Base
Supply Customer’s Procedures,” January 1, 2002, paragraphs 1.17.2.1, 8.23.18 and 8.30; AFOSI Manual
71-113, “Firearms, Use of Force, and Apprehension Tactics,” 24 March 2000, paragraph 2.2.
9
  While none of the Defense organizations appear to have excess firearms on hand, DCIS, DCIA, and
PFPACI/IAD do not have authorization documents that prescribe the required equipment. Those agencies
do not have documented requisition verification procedures that include positive steps for rejecting excess
or unauthorized requisitions.
10
   See discussion in section B of the main body of the Report.
11
   DoD 5100.76-M, paragraph C2.1.6., “Prior to assumption of such duties (and at least annually
thereafter), personnel responsible for the accountability of AA&E [arms, ammunition, and explosives] shall
be made aware of the importance of accurate receipt, dispatch, and inventory records. Adherence to the
requirement for scheduled inventories will be stressed, as well as procedures for processing inventory
adjustment gains and losses as prescribed in DoD 4140.1-R.”




                                                    29
Appendix D. Policy and Regulatory Guidance
            Regarding Reporting and
            Investigating Incidents of Lost,
            Stolen, or Missing Firearms
                                           Defense Organizations in Compliance with DoD Policy

    DoD Policy1                           DCIS2   DCIA3   PFPACI/IAD4   USACIDC5       NCIS6     AFOSI7

    DoD Components must have              Yes8     Yes        Yes           Yes         Yes        Yes
     procedures to report stolen, lost,
     or recovered arms, ammunition,
     and explosives to a centralized
     office

    Report confirmed thefts, losses,       No9    N/A         No9           Yes         N/A        Yes
     and recoveries of DoD arms to
     appropriate outside agencies:

    Incidents of lost, stolen, or          No9    N/A         Yes           Yes         N/A        Yes
      missing firearms must be
      thoroughly investigated
       - Initiate inquiry immediately     Yes     N/A         Yes           Yes         N/A        Yes
         after discovery of loss
       - Determine cause of loss and      Yes     N/A         Yes           Yes         N/A        Yes
         evidence of negligence or
         abuse
       - Determine financial liability     No9    N/A         No9           Yes         N/A        N/A
         when negligence or willful
         misconduct involved




1
  DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms, Ammunition, Explosives,”
August 2000, paragraphs C7.2, C7.3, and C7.6; DoD 4000.25-2-M, “Military Standard Transaction
Reporting and Accounting Procedures,” September 19, 2001, paragraph C12.2.8; DoD 7000.14-R,
“Financial Management Regulation,” volume 12, chapter 7, “Financial Liability of Government Property,”
April 1998.
2
  IG Manual 4140.1, “Property Management Program,” March 29, 2001, chapter 3, paragraphs 3.5.h and
3.5.i; DCIS Special Agents Manual, chapter 38, section 3813, “Firearms Security/Safety,” paragraph 12,
“Lost, Stolen Firearms,” November 2001; DoD 7000.14-R, volume 12, chapter 7.
3
  DCIA Policy Letter #02-11, “DCIA Firearms and Use of Force,” April 2002, paragraphs H.1, H.3;
DoD 5100.76-M, paragraph C7.6; DLA Regulation 7500.1, “Accountability and Responsibility for
Government Property in the Possession of the Defense Logistics Agency,” August 26, 1993, paragraph VI.
4
  Office of the Secretary of Defense, Administrative Instruction No. 94, “Personal Property Management
and Accountability,” November 6, 1996, paragraphs 6.7.2 and 6.7.1; DPS General Order No. 0000.00,



                                                     30
“Interim Guidance, Carrying and Securing Government Weapons and Ammunition from Residence to
Duty Station or Official Travel,” January 15, 2002, paragraph 3.d; DPS Standard Operating Procedure No.
7.5, “Stolen/Recovered Weapons,” February 1995; DoD 7000.14-R, volume 12, chapter 7.
5
  Army Regulation 190-11, “Physical Security of Arms, Ammunition, and Explosives,” February 12, 1998,
paragraphs 8-2.a, 8-2.a (8)(b), 2-9, 2-9.a, and 8-3; U.S. Army Criminal Investigation Command Regulation
195-1, “Criminal Investigations Operational Procedures,” version 3, January 1, 2002, paragraphs 7-10.a,
7-10.b (13), 17-2.b (4), 17-12, 17-2.c, 17-12.b.
6
  Chief of Naval Operations Instruction 5530.13B, “Department Of The Navy Physical Security Instruction
for Conventional Arms, Ammunition, and Explosives (AA&E),” June 2, 1999, change 1, chapter 8,
paragraphs 0800.b (2), 0800.e, 0801.b, and 0800.a; Naval Criminal Investigative Service Manual for
Administration (NCIS 1), chapter 34 (2002), paragraph 34-2.8, and chapter 7, paragraph 7-4.2.c; NCIS
Manual for Criminal Investigations (NCIS 3), paragraph 27-13.1.e.
7
  Air Force Instruction 31-101, “The Air Force Installation Security Program (FOUO),” 1 Jun 2000,
paragraphs 23.11.1 and 23.11.3; AFOSI Manual 71-113, “Firearms, Use of Force, and Apprehension
Tactics,” May 28, 2000, paragraph 1.10; Air Force Manual 23-220, “Reports of Survey for Air Force
Property,” July 1, 1996.
8
  The IG DoD has guidance that applies to DCIS; however, DCIS is not in compliance. See Section B of
the main body of the report for further discussion.
9
  See discussion in Section C.




                                                  31
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
General Counsel, Department of Defense
Inspector General of the Department of Defense
Director, Administration and Management
Deputy General Counsel (Inspector General)
Director, Defense Criminal Investigative Service
Director, Defense Logistics Agency
Director, Defense Logistics Agency Criminal Investigations Activity
Director, Pentagon Force Protection Agency
Director, Washington Headquarters Services

Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Criminal Investigation Command

Department of the Navy
Director, Naval Criminal Investigative Service
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Inspector General, Department of the Air Force
Commander, Air Force Office of Special Investigations

Non-Defense Federal Organization
General Accounting Office




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          33
Navy Comments




                35
36
37
38
39
40
Office of Administration and Management, DoD
Comments




                     41
42
43
44
45
46
47
48
49
Defense Logistics Agency Comments




                     51
52
53
54
Defense Criminal Investigative Service
Comments




                       55
Army Comments




                57
58
59
60
Air Force Comments




                     61
62
Inspector General of the
Department of Defense Comments




                    63
Team Members
The Investigative Policy and Oversight Directorate, Office of the Assistant
Inspector General for Inspections and Policy of the Department of Defense
prepared this report. Personnel of the Office of the Inspector General of the
Department of Defense who contributed to the report are listed below.

David Holmes
Yvonne Cormier
Nakita Pounds
Terry Hammer
